<html>
<title> - ``INTERNATIONAL PROGRAMS IN HIGHER EDUCATION AND QUESTIONS OF BIAS'' HEARING BEFORE THE SUBCOMMITTEE ON SELECT EDUCATION OF THE COMMITTEE ON EDUCATION AND THE WORKFORCE HOUSE OF REPRESENTATIVES ONE HUNDRED EIGHTH CONGRESS FIRST SESSION HEARING HELD IN WASHINGTON, DC, JUNE 19, 2003 Serial No. 108-21 Printed for the use of the Committee on Education and the Workforce 88-815 U.S. GOVERNMENT PRINTING OFFICE WASHINGTON : 2003</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]


 
                    ``INTERNATIONAL PROGRAMS IN HIGHER 
                     EDUCATION AND QUESTIONS OF BIAS''



                                  HEARING
                                 BEFORE THE
                     SUBCOMMITTEE ON SELECT EDUCATION
                                   OF THE
                         COMMITTEE ON EDUCATION AND
                                THE WORKFORCE
                          HOUSE OF REPRESENTATIVES
                        ONE HUNDRED EIGHTH CONGRESS
                                FIRST SESSION
		
               HEARING HELD IN WASHINGTON, DC, JUNE 19, 2003

                              Serial No. 108-21

              Printed for the use of the Committee on Education
              and the Workforce




88-815              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003

____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 512-1800 FAX: (202) 512-2250  Mail: Stop SSOP, Washington, DC 20402-0001




                 COMMITTEE ON EDUCATION AND THE WORKFORCE
                      JOHN A. BOEHNER, Ohio, Chairman

THOMAS E. PETRI, Wisconsin		GEORGE MILLER, California
CASS BALLENGER, North Carolina		DALE E. KILDEE, Michigan
PETER HOEKSTRA, Michigan		MAJOR R. OWENS, New York
HOWARD P. "BUCK" McKEON, California	DONALD M. PAYNE, New Jersey
MICHAEL N. CASTLE, Delaware		ROBERT E. ANDREWS, New Jersey
SAM JOHNSON, Texas			LYNN C. WOOLSEY, California
JAMES C. GREENWOOD, Pennsylvania	RUBE?N HINOJOSA, Texas
CHARLIE NORWOOD, Georgia		CAROLYN McCARTHY, New York
FRED UPTON, Michigan			JOHN F. TIERNEY, Massachusetts
VERNON J. EHLERS, Michigan		RON KIND, Wisconsin
JIM DeMINT, South Carolina		DENNIS J. KUCINICH, Ohio
JOHNNY ISAKSON, Georgia			DAVID WU, Oregon
JUDY BIGGERT, Illinois			RUSH D. HOLT, New Jersey
TODD RUSSELL PLATTS, Pennsylvania	SUSAN A. DAVIS, California
PATRICK J. TIBERI, Ohio			BETTY McCOLLUM, Minnesota
RIC KELLER, Florida			DANNY K. DAVIS, Illinois
TOM OSBORNE, Nebraska			ED CASE, Hawaii
JOE WILSON, South Carolina		RAU?L M. GRIJALVA, Arizona
TOM COLE, Oklahoma			DENISE L. MAJETTE, Georgia
JON C. PORTER, Nevada			CHRIS VAN HOLLEN, Maryland
JOHN KLINE, Minnesota			TIMOTHY J. RYAN, Ohio
JOHN R. CARTER, Texas			TIMOTHY H. BISHOP, New York
MARILYN N. MUSGRAVE, Colorado		
MARSHA BLACKBURN, Tennessee
PHIL GINGREY, Georgia
MAX BURNS, Georgia

                     Paula Nowakowski, Chief of Staff
                  John Lawrence, Minority Staff Director
			     ____________


                    SUBCOMMITTEE ON SELECT EDUCATION

                   PETER HOEKSTRA, Michigan, Chairman

JON C. PORTER, Nevada, Vice Chairman	RUBE?N HINOJOSA, Texas
JAMES C. GREENWOOD, Pennsylvania	SUSAN A. DAVIS, California
CHARLIE NORWOOD, Georgia		DANNY K. DAVIS, Illinois
PHIL GINGREY, Georgia			TIMOTHY J. RYAN, Ohio
MAX BURNS, Georgia			


                          TABLE OF CONTENTS

TABLE OF CONTENTS ......................................................  i

OPENING STATEMENT OF REPRESENTATIVE PHIL GINGREY, SUBCOMMITTEE ON 
SELECT EDUCATION, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. 
HOUSE OF REPRESENTATIVES, WASHINGTON, DC ...............................  1

OPENING STATEMENT OF RANKING MINORITY MEMBER, RUBEN HINOJOSA, 
SUBCOMMITTEE ON SELECT EDUCATION, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, WASHINGTON, DC ..............................................  3

STATEMENT OF DR. PEYTON FOSTER RODEN, DIRECTOR, CENTER FOR NAFTA 
STUDIES, COLLEGE OF BUSINESS ADMINISTRATION, UNIVERSITY OF NORTH 
TEXAS, DENTON, TEXAS ...................................................  5

STATEMENT OF MS. VIVIEN STEWART, VICE PRESIDENT FOR EDUCATION, ASIA 
SOCIETY, NEW YORK, NEW YORK ............................................  7

STATEMENT OF DR. STANLEY KURTZ, RESEARCH FELLOW, HOOVER 
INSTITUTION AND CONTRIBUTING EDITOR, NATIONAL REVIEW ONLINE, 
WASHINGTON, DC .........................................................  9

STATEMENT OF DR. GILBERT MERKX, VICE PROVOST FOR INTERNATIONAL 
AFFAIRS, DUKE UNIVERSITY, DURHAM, NORTH CAROLINA ....................... 11

STATEMENT OF DR. TERRY HARTLE, SENIOR VICE PRESIDENT, AMERICAN 
COUNCIL ON EDUCATION, WASHINGTON, DC ................................... 13

APPENDIX A -- WRITTEN OPENING STATEMENT OF REPRESENTATIVE PHIL 
GINGREY, SUBCOMMITTEE ON SELECT EDUCATION, COMMITTEE ON EDUCATION 
AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, WASHINGTON, DC ....... 33

APPENDIX B -- WRITTEN STATEMENT OF DR. PEYTON FOSTER RODEN, DIRECTOR, 
CENTER FOR NAFTA STUDIES, COLLEGE OF BUSINESS ADMINISTRATION, 
UNIVERSITY OF NORTH TEXAS, DENTON, TEXAS ............................... 37

APPENDIX C -- WRITTEN STATEMENT OF MS. VIVIEN STEWART, VICE PRESIDENT 
FOR EDUCATION, ASIA SOCIETY, NEW YORK, NEW YORK ........................ 49

APPENDIX D -- WRITTEN STATEMENT OF DR. STANLEY KURTZ, RESEARCH 
FELLOW, HOOVER INSTITUTION AND CONTRIBUTING EDITOR, NATIONAL 
REVIEW ONLINE, WASHINGTON, DC .......................................... 67

APPENDIX E -- WRITTEN STATEMENT OF DR. GILBERT MERKX, VICE PROVOST 
FOR INTERNATIONAL AFFAIRS, DUKE UNIVERSITY, DURHAM, NORTH CAROLINA .....117

APPENDIX F -- WRITTEN STATEMENT OF DR. TERRY HARTLE, SENIOR VICE 
PRESIDENT, AMERICAN COUNCIL ON EDUCATION, WASHINGTON, DC ...............125

APPENDIX G -- COVER PAGE AND TABLE OF CONTENTS OF A DOCUMENT 
ENTITLED, "THE SEPTEMBER 11th CRISIS: A CRITICAL READER", SUBMITTED FOR 
THE RECORD BY REPRESENTATIVE SUSAN DAVIS, SUBCOMMITTEE ON SELECT 
EDUCATION, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, DC ........................................139

APPENDIX H -- LETTER SUBMITTED TO CHAIRMAN PETE HOEKSTRA FROM 
REPRESENTATIVE MAX BURNS, SUBCOMMITTEE ON SELECT EDUCATION, 
COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, DC ........................................145

APPENDIX I -- LETTERS AND TESTIMONY SUBMITTED FOR THE RECORD BY THE 
PUBLIC TO THE SUBCOMMITTEE ON SELECT EDUCATION, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, 
WASHINGTON, DC .........................................................149

TABLE OF INDEXES .......................................................182



                     HEARING ON INTERNATIONAL PROGRAMS

                IN HIGHER EDUCATION AND QUESTIONS ABOUT BIAS

                          THURSDAY, JUNE 19, 2003

                        U.S. HOUSE OF REPRESENTATIVES,
 
                       SUBCOMMITTEE ON SELECT EDUCATION,

                  COMMITTEE ON EDUCATION AND THE WORKFORCE,

                                WASHINGTON, D.C.


The subcommittee met, pursuant to notice, at 2:00 p.m., in Room 2175, 
Rayburn House Office Building, Hon. Phil Gingrey [member of the 
subcommittee] presiding.

	Present:  Representatives Gingrey, Burns, Hinojosa, Davis of California, and Ryan.

	Staff present:  Kevin Frank, Professional Staff Member; Alexa 
Marrero, Press Secretary; Krisann Pearce, Deputy Director of Education 
and Human Resources Policy; Alison Ream, Professional Staff Member; 
Deborah L. Samantar, Committee Clerk/Intern Coordinator; Kathleen 
Smith, Professional Staff Member; Holli Traud, Legislative Assistant; 
Ricardo Martinez, Minority Legislative Associate/Education; Alex Nock, Minority Legislative Associate/Education; and Joe Novotny, Minority 
Staff Assistant/Education.

OPENING STATEMENT OF REPRESENTATIVE PHIL GINGREY, 
SUBCOMMITTEE ON SELECT EDUCATION, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, DC

Mr. Gingrey. A quorum being present, the Subcommittee on Select 
Education will come to order.

	We are meeting today to hear testimony on international programs 
in higher education and questions about bias.  Under committee rule 12(b), open statements are limited to the chairman and the ranking minority 
member of the subcommittee.  Therefore, if other members have statements, 
they may be included in the hearing record.

	With that, I ask unanimous consent for the hearing record to 
remain open 14 days to allow members' statements and other extraneous 
material referenced during the hearing to be submitted in the official 
hearing record.

	Without objection, so ordered.

	Good afternoon, and please accept my apologies for making you wait here on Thursday afternoon about an hour.  But as you all know, when we've have to vote, we have to vote.

	I'm Representative Phil Gingrey, and a member of the Subcommittee 
on Select Education.  Unfortunately, my Chairman, Peter Hoekstra, the gentleman from Michigan, had an obligation arise with another committee 
and is not able to join us today.

	Thank you all for being here today to talk about the international education programs that are authorized under Title VI of the Higher 
Education Act.  We appreciate your willingness to share your insights and expertise about the various programs and offer suggestions for the 
reauthorization of this title.

	The reauthorization of the Higher Education Act offers Congress an opportunity to enact needed modifications to the programs covered under 
the act and the rules that govern them, with the goal of building upon the programs that are working well.

	This subcommittee has jurisdiction over Title VI in the Higher Education Act.  Therefore, in preparation for the reauthorization, we are 
here today to learn more about a number of programs that are authorized 
and funded under Title VI, which are some of the oldest programs of support 
to higher education.  These programs reflect the priority placed by the federal government on diplomacy, national security, and trade 
competitiveness.

	International studies on education have become an increasingly important and relevant topic of conversation and consideration in higher education.  It is apparent that the need for institutions of higher 
education to provide American citizens of all ages the opportunity to learn more about world people and cultures has become a national priority that 
we do so.

	However, with mounting global tensions, some programs under the 
Higher Education Act that support foreign language and area studies centers have recently attracted national attention and concern due to the 
perception of their teaching and policies.

	Today, we want to get more information about the various programs 
that are authorized under Title VI.  First, I'm interested in learning more about how Title VI programs can provide innovative ways to help bridge the international knowledge gap in our nation.  Second, the reauthorization 
allows us a forum to consider what changes need to be made in the federal 
programs.  And I would like to use this opportunity to learn more about how institutions of higher education and the general public benefit from the programs within Title VI.

	Lastly, I am interested in opening the discussion and the debate 
to learn more about the merits of and concern for federal support given to some of the international education programs that have been questioned in regard to their teachings, which have been associated with efforts, 
allegedly, to potentially undermine American foreign policy.

	Again, I thank our witnesses for being here today, and your patience with the chairman.  And I certainly look forward to your testimony.

	And now I'd like to yield to the distinguished ranking minority 
member from Texas, Mr. Hinojosa, for his opening statement.

WRITTEN OPENING STATEMENT OF REPRESENTATIVE PHIL GINGREY, 
SUBCOMMITTEE ON SELECT EDUCATION, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENTATIVES, WASHINGTON, DC-SEE 
APPENDIX A

OPENING STATEMENT OF RANKING MINORITY MEMBER, RUBEN 
HINOJOSA, SUBCOMMITTEE ON SELECT EDUCATION, COMMITTEE 
ON EDUCATION AND THE WORKFORCE, WASHINGTON, DC

Mr. Hinojosa. Thank you, Mr. Chairman.  I want to thank you and thank 
Chairman Hoekstra for calling this hearing today.

	As we know from world events, international education will continue 
to grow in importance for our economy, for our security, and our 
relationships with and understanding of the rest of the world.  I've had 
many students, college interns who have come to work in my congressional office, and I enjoy listening to the interest with which they have on the issue that we're going to be talking about today.

	I'm pleased that we have this opportunity to focus on the international education programs funded under Title VI of the Higher 
Education Act.  Our subcommittee will take the lead in developing the reauthorization of the key international education programs.

	These programs include international and foreign language studies program that fund centers for area and language studies.  It includes the Business and International Education Program that funds centers to promote 
the nation's capacity for international understanding and economic 
enterprise and the International Institute for Public Policy that is 
designed to prepare students from minority-serving institutions for careers 
in foreign affairs.

	I look forward to working with my colleagues to strengthen and 
expand these important programs.  I am particularly interested in learning 
how minority-serving institutions and minority students can become more involved in these international activities.  Too often, our communities 
are isolated from the global economy.  This is in spite of the fact that communities like mine on the U.S./Mexican border have enormous potential 
to contribute in the international arena.

	Finding ways through education to promote international activities such as trade will only serve to bolster the economic development of our communities.

	I thank the witnesses for coming all the way to Washington, D.C., 
and I look forward to hearing your testimony.  I also am looking forward 
to a constructive dialogue on these worthwhile programs.

	With that, Mr. Chairman, I yield back.

Mr. Gingrey. Thank you, Mr. Hinojosa.  And I understand that you would 
like to introduce the first witness on our panel today.  And so I now yield 
to the gentleman from Texas, my friend Mr. Hinojosa, for the purposes of introducing our first witness.

Mr. Hinojosa. Mr. Chairman and members of the subcommittee, it is my 
pleasure and honor to introduce Mr. Peyton Foster Roden, the Director of 
the Center for NAFTA Studies at the College of Business Administration at 
the University of North Texas.  Prior to assuming the directorship of that center, Dr. Roden has had a distinguished care as a professor of 
economics and finance.  He has been widely published in top academic 
journals.

	Among his present scholarly activities is measuring the impact of NAFTA on the cost of capital to U.S. and to Mexican trucking companies.  
We have spent many hours discussing NAFTA and the Mexican trucking issue 
here in Congress.

	I ask my colleagues to join me in welcoming Dr. Roden to the subcommittee.  The impact of NAFTA has long been a strong interest of 
mine, and I'm looking forward to his testimony on the center's activities.  Welcome, Dr. Roden.

Dr. Roden. Thank you very much for permitting me to take your time to 
share with you the thoughts and community that we have from the University 
of North Texas and the College of Business.  We are indeed excited about 
the development of our BIE grant.

Mr. Gingrey. Dr. Roden, excuse me.  You are definitely our first witness.  
I wanted to go ahead now at this point and introduce the remaining members 
of the panel.  And then, of course, we'll come back and look very much 
forward to your testimony.

	Thank you, Mr. Hinojosa, and thank you, Dr. Roden. What I'll do 
now is go ahead and introduce the remaining members of the panel, and then we'll get into the testimony.

	Secondly, Ms. Vivien Stewart.  Ms. Stewart is a Vice President of Education at the Asia Society.  She is responsible for Asia Society's work with state and national policy makers to promote the study of Asia and 
other world regions and cultures in American schools.  Additionally, 
Ms. Stewart is a trustee of the National Center on Education and the 
Economy and the Longview Foundation for Education and International Understanding and World Affairs.  Welcome, Ms. Stewart.

	And now Dr. Stanley Kurtz.  Dr. Kurtz is a Research Fellow at the Hoover Institution, and he is a contributing editor for the National Review Online.  Previous to his current positions, he served as an assistant 
director at the Center for Research on Culture and Mental Health, was a 
Dewey Prize Lecturer in the social sciences, and a fellow for the Committee 
on Human Development, and a lecturer and consultant at Harvard University.  Welcome, Dr. Kurtz.


Dr. Gilbert Merkx is a vice provost for International Affairs at Duke University, where he is responsible for general oversight of the 
university's International and Foreign Language and Area Studies programs, 
and development of its programs and partnerships abroad.  Additionally, 
he is the co-chairman of the Council of Directors of Title VI National Resource Centers for Foreign Language and Area Studies, and serves on the 
task force on Title VI reauthorization of the Coalition for International Education.  Welcome to you, Dr. Merkx.

	Last, but certainly not least, Dr. Terry Hartle. Dr. Hartle is the Senior Vice President for Government and Public Affairs at the American Council on Education, where he directs government relations and public 
affairs activities for 1800 colleges and universities that belong to 
the nation's largest higher education association.  His previous 
positions include resident fellow and director of Social Policy Studies 
at the American Enterprise Institute for Public Policy Research, 
and a research scientist for the Educational Testing Service.  Welcome, 
Dr. Hartle.

	Before the witnesses begin their testimony, I would like to remind 
the members that we'll be asking questions of the witnesses after the 
complete panel has testified.  In addition, committee rule 2 imposes a 
five-minute limitation on all questions.

	If you don't already know, with this light system, it's green for 
four minutes, and then it's yellow for a minute, and then finally, it's 
red.  And at that point, I think I'm supposed to do something like that.  
So without further ado, I think it's time to get started, and we'll first recognize Dr. Roden.

STATEMENT OF DR. PEYTON FOSTER RODEN, DIRECTOR, CENTER 
FOR NAFTA STUDIES, COLLEGE OF BUSINESS ADMINISTRATION, 
UNIVERSITY OF NORTH TEXAS, DENTON, TEXAS

Dr. Roden. Thank you again.  I'm ready, as you can tell.  The University 
of North Texas has 33,000 students, and is located about 40 miles to the 
north of Dallas.  The College of Business has about 5,000 students, and is within the top 20 in terms of size in the United States in terms of 
colleges of business.

	We established a Center for NAFTA Studies about two years ago, 
which was really only on the books.  There was no excitement, no drive, 
no energy associated with it until we were informed in the early spring 
that we had received a BIE grant.

	This has galvanized the College of Business, and has moved forward 
the development of a NAFTA Studies Center.  And I wanted to thank the committee for helping us in that regard. We're awfully excited.  The grant 
is for $158,000, so it's a small grant.  It's big to us and our first one.  
$158,000 that will be spread over the next two years.

	We think and are convinced that the Department of Education and Congress will receive a high rate of return on investment and human capital 
as a result of this grant.  We also are convinced that the return on investment is going to be enhanced as a result of the transparency of 
several issues that are associated with the federal grant the transparency, the accountability, the visibility, and indeed, the legitimacy associated 
with a federal grant coming to a center.

	And let me explain what I mean by each of these.  By transparency, what we have done at North Texas is now we recognize that because we have 
a federal grant, we are going to be scrutinized, we're going to have to develop programs within a public sector, the public environment, and 
working with various constituencies within the Dallas/Forth Worth region, 
and indeed, all of Texas.

	The accountability is going to unfold as a result of an additional layer of accountability that we're going to provide explanations of how we 
are spending not only the university's money, which will match the amount given by the BIE grant, but also how we are using the grant to develop 
programs and so on.

	The visibility is very clear.  By developing the grant and 
developing the center, not only is the BIE grant going to be visible, but clearly, we're becoming much more visible as an entity in the College of Business, and indeed, within the Dallas/Forth Worth region.

	Finally, receiving such a grant legitimizes the center.  This is almost like receiving, we believe, a stamp of opportunity, if not of 
approval, that now the stakeholders in Dallas/Forth Worth area see the 
College of Business and its Center for NAFTA Studies as a legitimate area within the College of Business.

	What we're going to do with the money that we're receiving are 
several exciting things.  The most exciting thing is that we consider ourselves and the College of Business as a teaching institution.  And one 
of the things that we're doing is pushing an initiative and bringing 
international trade with an emphasis on NAFTA into the college classroom.  
We have commitments from 16 different courses which will begin to implement NAFTA modules within each of the classes.

	As a matter of fact, at least one of the faculty members has said 
that rather than putting international finance at the end of the course, usually the international chapter in textbooks is at the very last chapter 
in the textbook, and you just don't get to it.  What some of the faculty members are considering doing now is after chapters 1 and 2, chapter 3 
will be international finance.  Chapter 3 will be international marketing, 
and then bringing it up throughout the curriculum throughout the semester.  
We think that would be exciting so that by the time that the students walk 
out of the classroom, they're comfortable with international perspectives 
on issues.

	Also, we're going to be sending faculty members to Mexico to 
become acculturated, to study Spanish, to begin having an appreciation for Spanish.  Because many of us in the College of Business are convinced that Spanish is fast becoming the national language of Texas, so we Texans 
need to, yes, understand English, well Texas English anyway, but also be 
able to understand some Spanish.

	Thank you very much.

WRITTEN STATEMENT OF DR. PEYTON FOSTER RODEN, DIRECTOR, CENTER FOR 
NAFTA STUDIES, COLLEGE OF BUSINESS ADMINISTRATION, UNIVERSITY OF NORTH 
TEXAS, DENTON, TEXAS-SEE APPENDIX B
	
Mr. Gingrey. Thank you, Dr. Roden.

	And now, Ms. Stewart.

STATEMENT OF MS. VIVIEN STEWART, VICE PRESIDENT FOR 
EDUCATION, ASIA SOCIETY, NEW YORK, NEW YORK


Ms. Stewart. Thank you, Mr. Chairman.  As you mentioned, I am vice 
president for Education at Asia Society, and I'm also the executive 
director of something called the National Coalition on Asia and 
International Studies in the Schools.  Chaired by former Governors 
John Engler of Michigan and Jim Hunt of North Carolina, the coalition 
includes the heads of most of the national K-12 education associations, 
as well as corporate leaders, area and international experts, and media leaders.  It was formed last year to stimulate attention by K-12 educators 
to the international knowledge gap revealed by Asia Society's 2001 report.

	Last fall, the coalition organized the first States Institute on International Education in the Schools. Co-sponsored by the National 
Governors Association, 22 states sent teams of policy makers and educators 
to begin to address the question of how to develop an internationally 
competent workforce.  The subcommittee has the full reports of these 
meetings on which my remarks are based.

	In the few minutes available, I would like to make four points.  First, our high school graduates and K-12 teachers know far too little 
about the 90 percent of the world outside our borders.  Asia Society and National Geographic Society surveys have found that levels of student 
knowledge are really rudimentary.  You have many examples in your 
materials.  Young Americans, in fact, are next to last in their knowledge 
of geography and international affairs, compared with students from eight other industrial countries.

	Teachers are also not prepared.  Most prospective teachers do not 
take any international courses, and have very low participation rates in study-abroad programs.  In fact, teacher preparation programs are the 
least internationalized parts of universities.

	Language instruction doesn't reflect today's realities.  Fewer than 40,000 students, for example, study Chinese, a language spoken by 1.3 
billion people, and potentially our largest market.

	While these facts have been true for a long time, schools have not 
had a very internationally-oriented curriculum.  Why is it a problem?

	My second point is that international knowledge and skills are no longer just for experts.  In the past, international transactions were the domain of diplomats and international policy and business experts.  Federal investment through Title VI, therefore, focused on the development of 
such expertise in higher education.  Today, economic, demographic, and national security trends mean that all of our young people will need to acquire some international knowledge and skills in order to be successful 
as workers and citizens, and these trends are laid out in my written 
testimony.

	In fact, Secretary Paige, in his address to our institute last November, outlined an essential new policy direction.  I quote, ``In order 
to meet our goal to leave no child behind, we must shift our focus and encourage programs that introduce our students to international studies 
early in their education.  International knowledge is a new basic.''

	My third point is that our nation's major resource for building 
this future capacity is the federal investment in international expertise 
in higher education.  The higher education act contains both Title II, 
which promotes teacher quality, and Title VI, which promotes the development of international expertise.  As currently constituted, neither title adequately addresses our critical need to build teacher capacity in international content areas.

	In the absence of significant attention from teacher preparation programs of universities, the outreach activities of Title VI national resource centers are the major source of professional development for 
teachers about Asia, Africa, Latin America, and the Middle East.  These activities are highly valued by teachers, but far too few have access to 
them.

	But as currently funded and structured, these outreach activities cannot build the kind of national capacity we will need.  Outreach is a 
low priority with low budgets and part-time staff, and the centers don't 
exist in every state, and are not typically housed in the institutions 
that train the majority of our nation's teachers.

	Therefore, four, to build on the considerable federal investment 
in area and international expertise at the post-secondary level, and to 
align Title VI with this new policy imperative, I recommend that this subcommittee consider creating an adequately funded program of K-16 
Partnerships for International Teaching Excellence.  At least one of 
these partnerships should exist in every state, linking international 
content experts in arts and sciences with schools of education and 
interested districts.  The partnerships could undertake a variety of activities, including integrating international content into core 
curriculum areas, creating K-16 pipelines in major world languages, 
especially those in short supply, adding an international dimension to 
teacher preparation and into state standards and assessment, and 
pioneering new uses of technology for international learning.

	Closing the international knowledge gap is one of the most urgent challenges we face today.  Our children will live in a world fundamentally different from the one we've grown up in.  Certainly, we must continue to improve performance in reading, math, and science, as well as in 
American history and democratic institutions.  But in the 21st century, 
like it or not, knowledge of the world is no longer a luxury; it is a necessity.

	A Title VI initiative would receive broad support from governors, parents, business leaders, 
and educators, for there is a dramatic growth of interest in the need to prepare our children for this 
new world.

	Thank you.


WRITTEN STATEMENT OF MS. VIVIEN STEWART, VICE PRESIDENT FOR EDUCATION, 
ASIA SOCIETY, NEW YORK, NEW YORK-SEE APPENDIX C

	
Mr. Gingrey. Thank you, Ms. Stewart.  And now we'll hear from Dr. 
Kurtz.

STATEMENT OF DR. STANLEY KURTZ, RESEARCH FELLOW, HOOVER 
INSTITUTION AND CONTRIBUTING EDITOR, NATIONAL REVIEW 
ONLINE, WASHINGTON, DC


Dr. Kurtz. Mr. Chairman, for some time now, I have been deeply concerned 
about problems of intellectual and political bias in centers funded by 
Title VI.  Title VI-funded programs in area studies tend to purvey an 
extreme and one-sided criticism of American foreign policy.

	The ruling intellectual paradigm in academic area studies is 
called ``post-colonial theory.''  Post-colonial theory was founded by 
Edward Said.  Said is famous for equating professors who support 
American foreign policy with the 19th century European intellectuals 
who propped up racist colonial empires.  The core premise of post-colonial theory is that it is immoral for a scholar to put his knowledge of foreign languages and cultures at the service of American power.

	Said has condemned the United States as a nation with ``a history 
of reducing whole peoples, countries, and even continents to ruin by 
nothing short of holocaust.''  Said has actively urged his readers to 
replace their naive belief in America as the defender of liberty and 
democracy with his supposedly more accurate picture of America as a 
habitual perpetrator of genocide.

	Indeed, Said has dismissed the very idea of American democracy as 
a farce.  Yet Edward Said is the most honored and influential theorist in academic area studies today. Recently, the Title VI-funded Middle East 
Study Center at the University of California Santa Barbara sponsored an 
outreach workshop for K through 12 teachers in which only the writings of Edward Said and his like-minded colleagues were used to explain ``why they hate us.''  Many of the authors assigned in that workshop have been widely condemned, even by liberal and left-leaning commentators, as holding an ``anti-American perspective.''

	Yet I do not argue that only material that praises American 
foreign policy should be assigned in programs sponsored by Title VI.  I do argue, however, that our Title VI centers, as currently constituted, purvey 
an extreme and one-sided perspective which almost invariably criticizes American foreign policy.

	What is needed is a restoration of intellectual and political 
balance to our area studies programs.  In my written testimony, I refer 
to other examples of bias at Title VI centers.

	Title VI-funded professors take Edward Said's condemnation of 
scholars who cooperate with the American Government very seriously.  For years, the beneficiaries of Title VI have leveled a boycott against the National Security Education Program, which supports foreign language study 
for students who agree to work for national security-related agencies after graduation.

	For at least a decade, the African, Latin American, and Middle 
Eastern studies associations have sponsored a boycott against the NSEP.  
Since 1981, the directors of Title VI African national resource centers 
have agreed not to apply for, accept, or recommend to students any military 
or intelligence funding from the NSEP or any other such source.

	Shamefully, a mere two months after September 11th, Title VI 
African studies center directors voted unanimously to sustain their boycott 
of military and intelligence-related funding, including the NSEP.

	Title VI-supported scholars who boycott the NSEP claim to do so out 
of concern for their students' safety, yet both opponents and supporters of NSEP agree that there have been almost no cases of NSEP-supported students running into trouble overseas.

	The truth is, talk about students' safety is a pretext for a politically-motivated boycott of the NSEP by scholars bitterly opposed to American foreign policy.  This is made unequivocally clear by an early 
pro-boycott statement by the Association of Concerned African Scholars.  
A key signer of that statement is currently coordinating the boycott of 
Title VI center directors against the NSEP.

	How can Congress permit professors who take American taxpayer 
dollars on the claim that they are contributing to national security to boycott a program designed to bring desperately-needed foreign language expertise into our defense and intelligence agencies?

	Here is what I believe needs to be done to solve these problems.

	1)  Congress needs to create a supervisory board to manage Title 
VI.

	2)  Congress needs to pass an amendment that would take funding out 
of the hands of any Title VI center that engages in or abets a boycott of national security scholarships.

	3)  As a sign to deans and provosts that our area studies faculties must become more intellectually diverse, Congress needs to reduce the 
funding for Title VI.

	If these steps are taken, I believe that real reform to our area studies programs will follow.

WRITTEN STATEMENT OF DR. STANLEY KURTZ, RESEARCH FELLOW, HOOVER 
INSTITUTION AND CONTRIBUTING EDITOR, NATIONAL REVIEW ONLINE, 
WASHINGTON, DC - SEE APPENDIX D

Mr. Gingrey. Thank you, Dr. Kurtz.

	And now we'll hear from Dr. Merkx.

STATEMENT OF DR. GILBERT MERKX, VICE PROVOST FOR 
INTERNATIONAL AFFAIRS, DUKE UNIVERSITY, DURHAM, NORTH 
CAROLINA


Dr. Merkx. Thank you, Mr. Chairman, members of the committee.  I would 
like to expand just very slightly about my background, because I intend 
to draw upon that for my remarks.

	In addition to serving as vice provost at Duke, I'm also the 
director of the Center for International Studies, which receives Title VI funding.  And before I came to Duke two years ago, I served 20 years at 
the University of New Mexico as director of the Latin American and Iberian 
Institute.

	As you mentioned, I am the co-chairman of the Council of Directors 
of all Title VI programs, and I stepped down last year after 20 years as editor of the Latin American Research Review, which is the official journal 
of the Latin American Studies Association.  I would also like to tell you 
I was the founding member of the group of advisors of the National Security Education Program that Dr. Kurtz has referred to, and that I have served 
for several years as the chairman of the NSEP group of advisors.  In sum, 
I am well-acquainted with both of these important international education programs.

	But I would like to note that the Title VI community that I know 
is not the one that Dr. Kurtz is describing, and I would like to add that there is no boycott whatsoever of NSEP by Title VI centers.

	Title VI is one of the most cost-effective federal programs ever introduced.  Since its initiation by the Eisenhower Administration, it 
has been the primary program responsible for the teaching of foreign 
languages and international studies in the U.S., and it has leveraged 
large amounts of money and investment out of American colleges and universities.  At present, every Title VI dollar attracts more than $10 of funding from the host institutions.

	Title VI-funded centers train military officers and personnel for 
our intelligence agencies, and teachers for all levels of our educational system.  They also produce in-depth knowledge that has vastly deepened our understanding of other societies.

	We serve the nation's national security needs in two different 
ways.  Over the long term, Title VI centers produce new cadres of personnel trained in foreign languages and knowledgeable about foreign areas, as well 
as a cumulative body of knowledge about those areas.  And we provide 
manpower for government agencies and an intellectual foundation for intelligence.  In many ways, the role of these centers is analogous to that 
of the National Guard, which can be called upon in times of crisis.

	One of the graduates of my center in New Mexico worked for years in obscurity as a specialist in the small Central American country which just happened to be El Salvador.  And when civil war erupted in El Salvador, he 
was recruited by the CIA and became an important officer of that 
organization.

	Expertise at Title VI centers in other formerly obscure places, 
such as Somalia, Afghanistan, Kosovo, and Yemen, has also been drawn upon 
by our nation's agencies when we it became important.

	Let me give you some direct examples of how the Title VI centers 
that I have directed at New Mexico and Duke serve the national interest.  
In my 20 years as director of New Mexico, we trained 44 active duty U.S. 
Army foreign area officers who received the M.A. degree, and four Air 
Force officers.  During the period of the Central American conflict, my 
center in New Mexico hosted four workshops for the Defense Intelligence 
Agency in which academic specialists from around the country, whom I 
selected, met with intelligence officers from the DIA, the CIA, and the 
State Department.

	In 1997, my center organized and hosted a conference, in 
collaboration with the U.S. Army War College, the United States Southern Command, the National Guard Bureau, and the Inter-American Defense Board, 
on the subject of civil military issues in the Americas.  It was attended 
by 150 military, civilian, and academic personnel.

	At Duke University, the Center for International Studies that I 
direct houses both the Triangle Institute for Security Studies and the 
Program in Asian Security Studies, both of which interact regularly with national security agencies and military institutions such as West Point.

	Shortly before the war in Iraq, the chairman of the Joint Chiefs 
of Staff, General Richard Myers, visited the Triangle Institute to share 
with us the administration's views, anticipating remarks he was to make a couple of days later at the side of Secretary Rumsfeld to the nation.

	In our successful proposal to Title VI for a grant to continue our work, we pledge to focus over the next three years on two primary themes.  
One is international human rights and the other is international security.

	I give these examples, and let me add one other thing, which is I personally have lectured many times at defense institutions such as the 
U.S. Army War College in Fort Benning, Georgia, and at the National 
Defense University.  I give these examples to make it clear that within 
the Title VI community, there are people like myself who actively 
collaborate with our national security and defense institutions.  I do 
not claim to be typical of all foreign area specialists.  As in every 
academic enterprise, Title VI centers involve faculty with many different political perspectives and intellectual interests.  Some of us collaborate with national security agencies, and some of us choose not to do so.  But 
all of us support the larger Title VI enterprise of research and training.

	Now, the fact that I do collaborate with national defense agencies 
and security agencies does not mean I'm part of the mainstream.  I am part 
of the mainstream of foreign area studies.  If I were not, I would not be 
the co-chairman of the Council of Directors of Title VI centers, nor would 
I have been renewed numerous times as editor of the Latin American Research Review.

	Title VI centers, not just the specialists in the centers are 
diverse, but also, the centers are very diverse. And I would like later for the record to provide information about the functions that we provide.

	I would like to close by quoting some remarks that Admiral Bobby 
Inman gave at a conference we held at Duke in January on global challenges 
to U.S. higher education, and I quote as follows:  ``The needs of the 
country, whether involving national security or the global economy, 
are continuing to grow at a faster rate than we are equipping ourselves 
to deal with.  I remain as persuaded now as I was when I first encountered this problem back in 1958 that the key to our response is the pool of 
talented citizens who have the depth of knowledge of the cultures and 
languages and economies of the world that we interact with.  I remain as committed to Title VI as I did back then, but I consider it a bucket as compared to the fire hose that we need to deal with 
global issues.''

WRITTEN STATEMENT OF DR. GILBERT MERKX, VICE PROVOST FOR 
INTERNATIONAL AFFAIRS, DUKE UNIVERSITY, DURHAM, NORTH CAROLINA-SEE 
APPENDIX E

	
Mr. Gingrey. Thank you, Dr. Merkx.


Dr. Hartle, we didn't know whether to put you between Kurtz and Merkx, or Merkx between you and Kurtz.  But anyway, you ended up on the end.  And without further ado, we look forward to hearing from you now.

STATEMENT OF DR. TERRY HARTLE, SENIOR VICE PRESIDENT, 
AMERICAN COUNCIL ON EDUCATION, WASHINGTON, DC

Dr. Hartle. Thank you, Mr. Chairman.  I'm just very happy to be here and 
to have the opportunity to present the views of the American Council on Education and the 35 other associations that have signed on to our 
testimony.

	Title VI of the Higher Education Act is the single largest source 
of federal support for international education. Title VI funds 10 separate programs, and Title VI is divided into three parts.

	Part A focuses on increasing knowledge and expertise in some 130 languages, world areas, and global issues.  Part B provides support to 
expand leadership in the global economy at university-based programs.  And Part C builds international education capacity at minority-serving 
institutions, and provides internships to help students enrolled at these schools pursue international careers.

	I've attached a table to my prepared statement that summarizes each 
of these 10 programs.

	In the last 18 months, the Title VI program has been criticized by some who believe that the program is biased. Dr. Kurtz has summarized his concern about Title VI this afternoon.  I strongly disagree with his interpretations, and in several cases, I disagree with the facts as he recounts them.  I believe that his charges of bias in Title VI are baseless and without merit.

	But before I comment on his criticisms, I think it's important to 
note that there are some areas where Dr. Kurtz and I clearly agree.  We both agree international education is important, think the federal government has 
a role in it, and I think we share the view that it's more important 
now that we have good international education than ever before in the past.

	Second, we both want balanced academic programs that reflect all points of view.  And third, we both believe the National Security Education Program, a small program not in the jurisdiction of this committee, is especially valuable.

	I'd make three general comments about the charges that Mr. Kurtz 
has made this afternoon.  First, I think it important to note that his criticisms deal almost exclusively with one of the 10 Title VI programs, 
the national resource centers.  There are 118 NRCs located at universities around the country.  But the real focus of his concern is the 14 resource centers that deal with Middle Eastern studies.  To be even more specific, 
he's concerned about the teaching of history and political science at these centers.

	Second, at the heart of his criticism is an academic dispute about 
the best way to understand the Middle East and the Arab world, its history, and the reasons for the strong anti-American and anti-Western feelings that 
we find in that region.

	Obviously, there are many explanations for such a broad question, 
but let me simplify.  If we put all the explanations on a continuum, at one end, we would have what might be called The Western World is at Fault.  Adherents of this view claim that the West meddled in the Middle East 
for most of the 20th century, and its intervention undermined the Arab 
world.  In his testimony, Mr. Kurtz ascribes this view to Edward Said, a professor of comparative literature at Columbia.

	The other end of the continuum would be a position that holds the 
West is blameless.  That is, that the Arab world was struggling long before the West got involved in the Middle East and the region would face serious problems regardless of anything the Western world did there in the last 
century.

	Most of the many views about the Middle East would fall somewhere between these two extremes.  Dr. Kurtz believes that too much of what goes 
on in Middle Eastern studies is at The Western World is at Fault end of the spectrum.  He attributes this to Professor Said.

	I believe Dr. Kurtz errs in the importance he ascribes to Edward Said's viewpoint.  Few Middle Eastern scholars subscribe to this view, and none that I have spoken to in preparation for this hearing, all of whom are 
at Title VI centers, agree with Mr. Kurtz's view that Mr. Said's work 
is the ruling intellectual paradigm in their field.

	Moreover, Mr. Said laid out his view in 1978, a lifetime ago in academic circles.  Do people still read and refer to his work?  Sure.  
But does it dominate their world view?  No.

	I emphasize that in this democratic nation, we must have diverse points of view, particularly at our universities. Knowledge emerges in advances from a continual interaction of information, ideas, and perspective.  Knowledge, whether it is in the biological sciences or the social sciences, 
is not fixed and static.  Ideas formulated when the Shah still ruled in Iran will be inadequate and incomplete to explain today's world.

	It's the interaction of ideas and scholars from different points of view that are crucial if knowledge is to move forward.  The Title VI centers which bring these scholars together from a variety of academic disciplines 
are particularly significant in this regard.

	My third comment is that the evidence of bias Mr. Kurtz cites comes from a very small number of anecdotes.  His testimony discusses one scholar, 
a single one-day workshop at one Title VI center, one web site, and one program not in the jurisdiction of this committee.  Even if we accept his description of the facts, four anecdotes does not demonstrate widespread systematic bias that his rhetoric would suggest. Indeed, I'm struck by the divergence between his assertions of extremism and lack of balance and the very small number of incidents he cites to make his case.

	And I do not agree with his description of the facts, especially as 
it relates to the one-day workshop at the University of California and the National Education Security Program.

	We all know that having experts in the general population that's knowledgeable about the broader world is more important today than it has 
been ever before.  I think Title VI has served the nation well, and I think 
it will continue to do so in the future.

	Thank you.


WRITTEN STATEMENT OF DR. TERRY HARTLE, SENIOR VICE PRESIDENT, 
AMERICAN COUNCIL ON EDUCATION, WASHINGTON, DC-SEE APPENDIX F


Mr. Gingrey. Dr. Hartle, thank you.

	I will take the privilege of asking the first round of questions, 
and I think I'll start with you, Dr. Hartle. You had mentioned about the national resource centers, and, of course, 118 that were funded last year.  How can we all be sure that the information provided is fair and balanced, 
and do you think that there's a federal role to ensure the programs funded with taxpayer dollars are, in fact, fair and balanced?

Dr. Hartle. Well, the short answer is yes, absolutely, the programs must 
be fair and balanced.  And I'm sure that any one of the 118 Title VI center directors would insist that that is absolutely to be the case.  And indeed, Dr. Merkx can do that himself.

	Is there a federal role in determining whether programs are fair 
and balanced?  I think this is difficult to determine, because you'd run 
the risk that you would tilt in one direction or the other, depending on 
what ideological point of view was in the saddle at that precise time.

	When the charges were made about the programs at the University of California Santa Barbara, however, the Department of Education sent 
reviewers to look at that particular program to determine if, in fact, the program was in balance and was doing things that were biased.  The 
department has never released that report, and I've never seen it or talked 
to anybody who has reviewed the report.  But the committee could take a look at that report and make its own judgment about that.

	And I think that's a model for the committee to think about, that 
when there's a criticism, when there's a problem, the Department of 
Education certainly ought to go and look at the centers and review the 
centers and make a decision as to whether or not they think there are problems.

Mr. Gingrey. Thank you, Dr. Hartle.  On my time now, I would like to go 
to Dr. Kurtz and make this somewhat of a point-counterpoint.  And Dr. 
Kurtz, my question to you, are the Title VI programs that you believe are staying true to the intent of the law and providing a well-balanced and thorough study of the Middle East?  If so, what are they doing, and how can 
these activities be replicated in some of the other programs that you have concerns over?

Dr. Kurtz. Well, Congressman Gingrey, as I said in my statement, I believe 
that the programs funded by Title VI are, in fact, biased, and extremely so.  And the solution I would recommend is a supervisory board.  Rather than 
having the Department of Education go on a special case basis into program after program, let's have a regular board.  We actually have supervisory boards for programs like the Fulbright Program, the National Security Education Program. We need a full-time supervisory board for this program.  And that's the best way, I think, to solve this problem.


Mr. Gingrey. Thank you, Dr. Kurtz.  And I still see that I have some time 
left, so I'm going to go to Dr. Merkx. 

Dr. Merkx, how effective would a government oversight board, such as the 
one that Dr. Kurtz just suggested to us, how effective would it be in 
ensuring the accountability of the programs that receive federal funds? And 
if such a board would not be effective, please comment on any further recommendations you might have for maintaining accountability under this 
Title VI.

Dr. Merkx. I do not think such a board would be very effective.  We had 
such a board in the 1970s, and it never worked very well.  I think the peer review panel system that we currently have is quite effective in seeing 
that the plans that are submitted for activities are sound.  Those peer 
review panels usually include members of the FBI, State Department, or 
Defense Department as part of the peer review process.

	If there is to be a review panel, I think it should be composed of 
the clients of the program, not of political appointees.  I would recommend that there be an interagency group, which would include representatives of 
the State Department, the Defense Department, the CIA, other agencies, 
perhaps Homeland Security, who are the kinds of agencies that hire the 
people with the skills that we produce.  Those other agencies could work 
with the Department of Education to see that these programs are producing 
the manpower required.  That's much more in line with what the NSEP 
does.

	If there is to be a mechanism, I would recommend that kind of mechanism, not a review panel appointed by the executive or by the Congress 
or whatever.

Mr. Gingrey. Thank you, Dr. Merkx.  And Ms. Stewart.  Ms. Stewart, is 
there anything short of a new program that can be added to the act which 
will ensure that the international education priorities that you make clear are vital for students of all ages that we're addressing, is there anything that we can do?  I mean, you understand my question.

Ms. Stewart. Uh-huh.  Yeah.  But I don't understand all of the legislative 
language and all of the programs of the act well enough to say, ``Well, if 
you added this clause to this piece, it would deal with it.''  I think I've tried to lay out what the national capacity needs are, and the fact that the current outreach efforts are much too small, and they're not structured well 
enough to meet them.

	There is some argument that it should be addressed in Title II, as 
you know, which is a broader program concerned with teacher preparation.  
But that tends not to focus on specific content knowledge.  And in any case, it's focused on the current curriculum standards, which, because they were written mostly in the 1980s, don't really incorporate international 
knowledge.

Mr. Gingrey. Thank you, Ms. Stewart.  And I see that my time has 
expired.  And at this point, I will turn it over to Mr. Hinojosa for his questions.

Mr. Hinojosa. Thank you, Mr. Chairman.  My first question is to Dr. 
Roden.  There is much to commend in your academic programs and support services in Texas.  However, NAFTA has also been accused of raising 
national and international unemployment and environmental concerns.  How is your center dealing with these two salient issues?

Dr. Roden. Well, as we have developed a program at North Texas, we're 
certainly concerned about the remedies that are built into the economic 
and employment dislocation that can be associated with NAFTA, the idea 
being that it's important that a society, either Canadian, Mexican, or the United States society, have trampolines to help people bounce back in the event that NAFTA imposes a cost upon an industry sector or a company.  
We're also concerned about the environment and the impact of NAFTA on the environment.

	What we're doing is developing research programs and initiatives 
that will provide for, hopefully, a balanced perspective on the benefits 
and costs associated with NAFTA. We recognize that, just as in accounting, there's no debit without a credit, that when there are benefits, we need to 
look very closely for any costs that are associated.  And what we want to 
do is to do the research to find out ways that we can minimize the cost and increase the benefits.

	So we have in our College of Business a group of business law professors who are researching the topic of NAFTA, and are looking at the various legal remedies associated with NAFTA.  So we're excited about that program.

Mr. Hinojosa. With the Trade Promotion Authority having passed, we 
need to have your organization send us here to Washington, especially to 
the administration, information that would allow them to reconsider the 
trade promotion agreement with Singapore and Chile.  Because neither 
address that, and they are just letting those countries handle those two 
issues.  And I wish I could have more dialogue with you on that.  But we certainly need to address that.

	I want to ask Dr. Merkx from Duke University, you supported 
additional funding under Title VI for these programs that we are discussing.  Are there any new activities that are not currently authorized now that 
you would recommend for consideration by our committee?

Dr. Merkx. Congressman Hinojosa, I believe that the basic authorizations 
that are in Title VI are sound, and do not need fundamental changes.  I 
think maybe some minor fine tuning.

	I do think that the entire Higher Education Act, however, is insufficiently international in origin.  I would certainly agree with the comments made earlier that we need to look at the other parts of the act 
to see that we're doing as much to internationalize K-12 education, and to find mechanisms whereby higher education can help K-12 in 
internationalizing itself.  I think that obviously is the case in 
teacher education, but it also has to do with curriculum development 
and many other activities.

	Outreach is part of what we do in Title VI, but it's a small part.  And I think, in part, the difficulty is the funding has never been adequate for the overall program.  But I think we would be helped by perhaps some programs in FPSE or in Title II that would specifically step up to the 
plate and provide some mechanisms for internationalization of K-12 
education.

Mr. Hinojosa. Duke has a good reputation for some of the programs for 
sophomores, juniors, seniors in high school, bringing them to summer 
programs and introducing them to a lot of new programs like yours.  And 
I would suggest to you, and again time is limited, and I can't have a 
dialogue with you either.  But I would like to suggest to you that you 
take a look at some of the regions of the country where we have some 
very talented high school students, boys and girls, interested in international programs that need to be brought to Duke and introduced 
to these programs so that they can be encouraged to do this.

	Because in my area, we have the eighth best high school of the top 
100 in the country.  And they are Spanish speakers.  But they are doing extremely well.  And they're interested in international programs.  And 
I'd like to see you come down and recruit from South Texas Independent 
School District.


	Dr. Kurtz.  You are proposing that Title VI funding be removed 
from universities if they abet a boycott of national security. What specific guidelines would you propose for the Department of Education?

Dr. Kurtz. Congressman Hinojosa, you mean how should the provision be 
written?

Mr. Hinojosa. Not necessarily how it should be written.  I'll come back 
in the second round and start with you.  With that, I yield my time.

Mr. Gingrey. Thank you, Mr. Hinojosa.  And we will, if the panel will 
bear with us, we'll have a second round of questions.

	And I would now like to introduce for his question my good friend, 
the gentleman from Ohio, Mr. Tim Ryan.

Mr. Ryan. Thank you, Mr. Chairman.  And thank you very much.  I think this 
is going to prove to be an interesting afternoon here, and excuse me for 
my cold.

	First, Dr. Roden, you talked a little bit about NAFTA.  And I represent a district in northeast Ohio that has lost a lot of jobs in auto 
and component parts to the auto industry, down to NAFTA, into Mexico.  That 
is one component and we feel that we're losing American jobs.  It's a 
race to the bottom, and there aren't the standards.

	I know Mr. Hinojosa talked a little bit about this.  But can you expand a little bit?  Because I was looking through your course schedule 
that you attached to the back. Are there going to be any efforts in the 
field of business ethics and human rights and labor?  And I know you 
mentioned environmental laws, which is a major concern.  But can you talk 
a little bit about human rights and some labor standards?

Dr. Roden. Well, Congressman, we and the College of Business have an 
advantage and a disadvantage in the sense that much of the business curriculums today are very micro- and specific-oriented.  Business ethics, which some people believe is an oxymoron.

Mr. Ryan. Kind of like political ethics.

Dr. Roden. Well, like jumbo shrimp, right.  But clearly, ethics needs to 
permeate all of the offerings.  But what we are doing at this stage of our development, and our grant does not begin until July the 1st, so we're 
right now in the incubus stage, we're going to develop specific methods of dealing, like in the area of finance, what is going on with cash flow 
and accounts receivable management as a result of NAFTA and dealing with Mexican and Canadian companies.  How do you deal with foreign exchange and foreign currency risk? At this level of our development, we're looking at 
very specific techniques and methodologies for dealing with business issues.

	Clearly, what you're suggesting is a crucial idea and item.  And 
our business law faculty is starting to pursue research in the area of, as 
I mentioned, the trampoline effect, that when there are dislocations as a result of any international trade, but specifically in our area, NAFTA, you want to have some way of supporting, letting people bounce back, helping 
them with training, helping them with job location, and so on.  It is a pervasive problem, and as you're implying, it doesn't affect just 
Texas and I-35.  It affects the entire United States.  I agree.

Mr. Ryan. And I think there's an opportunity for you, since you're still 
planning, and it sounds like you're dealing with capital flow, for the 
most part?

Dr. Roden. Yes.

Mr. Ryan. I think there's an opportunity for you, and I would certainly 
encourage you to do this to try to include, because a lot of times, the capital flow dictates the kind of labor standards and the kind of environmental standards that these other countries use with the 
threat that they're going to take their capital and move it to an easier 
place where they will get the kind of laws or lack of laws to enforce 
these kinds of things.  So let me just strongly encourage you 
to do this.

	And Mr. Chairman, are we going to have a second round of 
questioning?

Mr. Gingrey. We will have a second round.

Mr. Ryan. Then I'll come back to you.

Dr. Roden. Thank you, sir.

Mr. Ryan. Because we have two people going against each other here, and 
I've have to get to you in my first round.  And we'll get back into trade deficits and things like that, because some recent statistics came out.

	Mr. Kurtz, I was just listening.  I kind of want to follow up on 
Mr. Hinojosa's comments there.  And you have been on record before 
basically saying that no university that continues to ban the National Security Education Program from its campuses should be permitted to take federal funding.  Is that an accurate statement that you have made?

Dr. Kurtz. Well, actually, I said no university or center.  I mean, there 
were several quotes, and Mr. Ward chose only to take one quote.  I said 
no university or center.  So if a university as a university were to ban cooperation with the NSEP, then that university should lose funding.

	Right now, it's centers.  The Title VI center directors in African resource centers have launched a boycott. I was quite taken aback by Dr. Merkx's claim that there is no boycott.  I mean, we have an article here 
from the Chronicle of Higher Education that says, ``Scholars Revive 
Boycott.''  I have a memo from the Title VI Center Directors of the 
African National Resource.

Mr. Ryan. Okay.  Let me let Dr. Merkx go ahead and respond to that.

Dr. Kurtz. Yes.

Dr. Merkx. Some of the area studies associations, three of them, passed 
resolutions recommending to their members that they not accept NSEP 
funding.  Many of the members of those associations disagreed totally 
with that, and the Title VI Center Directors Association has never taken 
that position.  I know of no Title VI effort to say they will have 
nothing to do with NSEP.

	I strongly support NSEP.  I think it's a great program.  Almost 
all the center programs I know also support it.  There are a few who do 
not, but they do not speak for us.

	There's a big difference between Title VI centers and these professional associations.  Most of the faculties in those professional associations are not in Title VI centers. And those associations tend 
to have more of the kinds of people Dr. Kurtz is concerned about than 
Title VI centers.

Mr. Ryan. Mr. Chairman, if I may, just to clear this up?

Mr. Gingrey. Briefly.  And then we can continue it on round two, if 
you'd like.

Mr. Ryan. So Dr. Kurtz, you're saying that there is a boycott, and Dr. 
Merkx is saying that there is not a boycott, and the boycott is being led 
by people who are not receiving Title VI funding; is that correct?

Dr. Kurtz. I am saying, Congressman Ryan, that I have a memo here put out 
under the name of David Wiley, who is a national coordinator of Title VI centers, reaffirming the boycott, and announcing that the Title VI center directors of African studies resource centers have voted unanimously to reaffirm that boycott, as directors of Title VI centers, two months after 
September 11th.  And I will submit this to the committee.

Mr. Gingrey. Stay tuned for round two, ladies and gentlemen.

Mr. Ryan. Thank you.

Mr. Gingrey. Thank you, Mr. Ryan.  Well, we'll go ahead and start the 
second round with myself.

	And Dr. Roden, I had a question for you.  My son is actually a graduate of the American International Business School, and that's not 
the right title, but the Thunderbird School in Glendale.  I know you're familiar with it.

Dr. Roden. Phoenix, yes.

Mr. Gingrey. And it sounds like it's very, very similar to what you're 
doing there at the University of North Texas.

	I wanted to ask you, is the focus of your program, which falls 
under the business and international programs in Title VI, towards 
economic democratic development, or is it more toward understanding 
peoples of a different culture and background?

Dr. Roden. Well, I would say if you want to get an A or B answer, it would 
be B, that we're concerned about culture.  Because, as I said, Congressman, the idea that we're looking at here is from a college of business, which is very micro-oriented, as opposed to, say, a Department of Economics, which deals with much broader social and economic issues.

	What we're doing in the classroom is introducing, hopefully, the faculty will introduce methodologies to deal with issues that have arisen 
from all of international trade, but primarily with emphasis on NAFTA, as 
I said, so that when our graduates pass out the hallowed halls of ivy at 
the University of North Texas, they will be knowledgeable, or at least comfortable, with the idea of making decisions in an international environment.

	Now, clearly, that will entail an understanding of culture.  And 
one of the initiatives that we have in our program that we're talking 
about developing is that faculty will take students, North Texas students, 
to campuses in Mexico to teach a specific topic.  For example, I'll take students, 20 or 30 of our students and more, if I can get them to sign up, 
to a campus in Mexico.  And in the morning, I will teach the finance.  In 
the afternoon, the students will study Spanish.  Spanish study will be a required part of this program, at whatever level the student needs, some 
have had none; some have had advanced Spanish while they've living with a Mexican family.

	So we feel like that this is going to benefit the students.  But 
also, we want to have a program where, rather than just giving money to faculty members to travel and learn about culture, we're going to systematically develop a program where our faculty will go down as a group 
to a campus in Mexico.  And at that point, we will be there for one or 
two weeks.  And during that period, they will study Spanish and visit 
Mexican businesses in Mexican Banco de Mexico and develop programs that 
they can take back to enrich the classroom experience.

Mr. Gingrey. Thank you.  Dr. Kurtz, have you found bias in any of the 
other programs that are authorized under Title VI, or is it only in the national resource centers in the foreign language and areas studies 
programs?

Dr. Kurtz. Well, Congressman Gingrey, bias is pervasive throughout the 
American academy.  Pervasive. And it includes the resource centers and the programs that you've mentioned.  It probably goes far beyond that.  That 
is one reason why I think we need a supervisory board, to obtain more 
facts.

	Most of the material that I've been able to present to the 
committee has come from programs which put out information on web sites 
and such.  But what there needs to be is a board that can supervise and 
find out exactly how deep the problem goes.  But we already know from 
what I consider to be comprehensive and authoritative studies like Martin Kramer's book, Ivory Towers on Sand, that the problems in academia are pervasive.

	Kramer's book is about Middle Eastern studies.  But let me just 
say in response to Dr. Hartle that my concerns go far beyond Middle 
Eastern studies.

	First of all, I've just been talking about African study centers, which precipitated a boycott.  I'm a South Asianist, and I can tell you, 
and the truth is that's what I'm really passionate about is South Asia.  
And South Asia is completely dominated by post-colonial theory.  Edward 
Said probably has more influence on South Asian studies than he has on 
Middle Eastern studies.  And Middle Eastern Studies Association has just 
given him a gigantic award for his unparalleled influence on Middle 
Eastern studies.

	Edward Said has founded an intellectual paradigm. It's called 
post-colonial studies.  It's no longer necessary for people to directly 
quote him for them to be under the influence of his general perspective.

	I have lived and seen this on a day-by-day basis in academia, and 
I'm telling you that the influence of post-colonial theory and of approaches like Professor Edward Said's is pervasive.  And to get to the bottom of it, we've got to have a board.

Mr. Gingrey. Thank you, Dr. Kurtz.  And I see my time has expired, and 
we'll move to Mr. Hinojosa for his second round of questioning.

Mr. Hinojosa. Dr. Kurtz, you and Tim have a good dialogue going, but I 
want to be sure that you realize that I have a great deal of respect for Harvard and for the way in which you all teach both sides.  And I am, I 
guess, a real strong proponent of the case studies that you all do.  And 
so I'm going to let Tim continue that dialogue that you all had, and I'll 
come back and see if I can still ask you some additional questions.

	I wanted to take this opportunity to say to Ms. Stewart thank you 
for your insights, rather, regarding the lack of opportunities for young people in helping them learn about international issues.  You have some 
good ideas for that K-16 pipeline that you talked about. What other ideas 
do you have to improve this area?  For example, do you work with any of 
our national professional foreign language teacher associations?  Or do 
you work with the National Association for Bilingual Education to try to 
carry out your insights?

Ms. Stewart. Most of my work is, in fact, in New York City with New 
York City teachers.  But to the extent that we work nationally, we have 
many of the language associations are a part of this national coalition.  
And then we're also working with projects in 14 states, where sometimes 
the Governor, sometimes the chief state school officer, sometimes the 
university, has set up a group of state leaders to look at the whole issue 
of what is their state's relationship to the world now?  What will it be 
in five years' time?  What is in their student standards and assessment 
about the world? Usually very little in the standards and nothing in the 
assessment.  Taking a look at their teacher preparation programs, taking a look at uses of technology, how to build on their higher education 
resources.

	In the language area specifically, which I think is almost the hardest, I think it's easy to imagine how you can begin to integrate international content into all the core disciplines if you have teachers 
and textbooks that have that. I think the languages area is complicated, because there are so many potential languages, because we don't always 
have the foreign teachers, because some of the methods have not always 
been as effective.  We now know a lot about what works in terms of 
starting earlier, more intensive programs, building on heritage, 
language communities, and so on.

	But I think that states and district are actually not sure how 
to proceed in this area.  I'm struck by the fact that when I'm in 
Washington, there are big debates about, and agreement, that we 
need more languages, especially the non-European languages, in state 
education circles, whether it's school boards or state legislatures.  
Nobody talks about languages whatsoever.  And at the local 
level, they're all being cut in budget cuts.

	So I think we need sort of more analytic work and more model development, which is why I suggested model development, to try to see 
how we can begin to create these pipelines in the neglected languages, 
and what's the most effective way to do it.

	So yes, we do work with all of those groups.  Thank you.

Mr. Hinojosa.  Well, if I may, I'd like to suggest to you that you write 
both to the states and to the national governments to encourage us to put 
more resources into foreign language, particularly the Chinese, Spanish.  Because, as some of the panelists said, those are the languages where 
there's so much business, and that great need to be able to talk to other 
businessmen and businesswomen from other countries in their language, not expecting everybody to speak English, as we do now.

	And in the seven years I've been in Congress, the mindset is 
that English is the dominant language throughout the world, and that's 
not so.  And they're quickly finding out as they go into China thinking 
that we can trade with the 1.3 billion buyers, and so many of our American 
companies are coming back trying to get out of the country before their 
losses are greater.

	So obviously, there is a lack of our speaking and understanding 
the Chinese language.  And, of course, if we are to strengthen the western hemisphere, Spanish, of course, is the language that we're going to have to learn, and understand the culture, so that we can do a better job.

	So I thank you.  I'm glad that you came.  I yield my time, Mr. Chairman.

Mr. Gingrey. Thank you, Mr. Hinojosa.  And now we'll move over to our 
host, Mr. Tim Ryan.

Mr. Ryan. Thank you, Mr. Chairman.  I have a life after politics, huh?

	First, back to the NAFTA situation.  Would you say that your staff that is going to be teaching this, would you say there is a bias one way 
or the other as far as a pro trade versus, I guess, free trade fair trade?  Would you say there would be an inherent bias one way or the other in 
your program?

Dr. Roden. It's difficult to say, as you can well imagine.  But if you were 
to ask me about my colleagues in general, as I indicated earlier, most of 
us are accounting and micro type or marketing type of orientation.  And the general attitude, though, would be very much in favor of free trade and expansion of business, because it contributes, at least in the Dallas/Fort 
Worth area, to an expansion of employment opportunities for our graduates.

Mr. Ryan. And I take it your graduates aren't hard labor workers.

Dr. Roden. No, no.

Mr. Ryan. I mean, they're going to achieve status in the business world.

Dr. Roden. We hope so.

Mr. Ryan. I just hope, and I just want to encourage you.  And we talked a 
little bit about capital flow.

Dr. Roden. Yes.

Mr. Ryan. And a report just came out in the last day or so, $136 billion 
trade deficit for the first three months, which is the largest in the 
history.

	So these things have to be and if you're going to approach it from 
the capital flow perspective, I would just encourage you to say as you're monitoring why the capital is going into other countries, and now we see 
that capital is leaving Mexico and going to China.

Dr. Roden. Right.

Mr. Ryan. And it's leaving because there are lower wages, less 
environmental standards, less human rights standards, zero democracy in 
China.  So if you have to figure out a way to incorporate that, you know, 
try to track as the capital flows.  And so when you come back in a year or 
two to try to get more money, maybe have a little bit more information on 
why we're losing some jobs.

	But I wish you the best of luck with it.

Dr. Roden. Thank you, sir.

Mr. Ryan. Dr. Kurtz, why do you think Dr. Said's post-colonial theory has 
drawn such interest?

Dr. Kurtz. Congressman Ryan, you ask a very deep question.  I think that 
there has been a cultural shift in this country since the 1960s, and it 
has become increasingly difficult in certain circles of our country to criticize anyone other than the United States.  For some reason, it feels 
more comfortable to criticize yourself, if you know what I mean.

	And so an almost reflex toward criticism of America and American foreign policy has grown up within out academic community.  And the folks 
who purvey that particular perspective themselves have a critical attitude toward traditional notions of liberty and freedom.  People who take a 
post-modern perspective, like Professor Said, followed Michele Foucault.  Michele Foucault doesn't take very seriously the traditional democratic guarantees.

	So these people don't have any qualms about trying to stack a 
faculty with people from one point of view.  They consider notions of 
liberal balance a kind of deception for powerful people, that in their 
view, if you give all the seats to what they consider to be people who 
are fighting against illegitimate power, then that's the right thing to 
do.

	So they can design jobs, for example.  They will design a job announcement that will ask, and this is a rough approximation, but seeking professor who talks about post-colonial movements in South Asia in the 
1970s.  That's structured so that only someone of a particular point of 
view can fill the post.  And in effect, they're able to take over 
departments and govern them according to one perspective, until supporters 
of American policy are pretty much relegated to the sidelines outside 
of academia, criticizing from the outside.

Mr. Ryan. I'm going to have to be quick here.  Dr. Hartle, just as more of 
a logistics question, who decides at these centers what is being taught?  
Who makes the final decision?

Dr. Hartle  XE "Mr. Hartle"  . Well, the centers would be interdisciplinary organizations within a university that would involve people from many different areas, and they would be involved in teaching and in research.  
What would be taught would be something that would be negotiated out 
within the faculty of the institution, as it pretty much is everywhere.

	In the case of the centers and Dr. Merkx might be able to address 
this more directly it would be discussions between various parts of the 
center in terms of who wanted off for this particular course this term, 
who would offer what course next term.  It's, frankly, negotiated out.

Mr. Ryan. And is that debated as far as where the interests lie, I would 
imagine, as to what's taught.  And what is the component as far as from a consumer aspect of what's going to be taught?  Does that drive what is actually taught, what they want to be taught?

Dr. Hartle. Do you mean what students want to be taught?

Mr. Ryan. Uh-huh.

Dr. Hartle. Sure.  If students are particularly interested in a set of courses, say, the Middle East, those courses will be taught, and they'll 
be taught regularly.  If they're courses that don't attract much student interest, that don't get very much enrollments, they don't get taught 
as often.  So it is courses that are popular and that people want to take 
that will be taught more frequently.

Mr. Ryan. I think I'm done.

Mr. Gingrey. The gentleman's time has expired.

Mr. Ryan. Thank you very much.

Mr. Gingrey. The gentle lady from California, Mrs. Davis, has joined us.  
We're very grateful for her being here. And Susan, we each had two rounds, 
so don't feel too constrained by the five-minute rule.  You just go ahead.

Mrs. Davis. Well, thank you, Mr. Chairman, and I appreciate that.  And I 
really am just going to take a minute. And I'm sorry that I had some other matters that I had to address.

	But I wanted to be here.  And certainly the testimony of all of you 
is here in the packet, and I will take a look at that, and have a chance to review it.  But I was somewhat perplexed, I think, just by what we were 
trying to really get at today.  And so I had asked what the problem was?  
What were we looking at?

	And as I understand it, a lot of the concern comes from this particular resource book, which is a critical reader on the September 11th crisis.  And the two articles in question are, and one is about three pages, one is about four pages in here.

	And so I guess I would just point out and make sure that we all understand that I think in a university setting, there are a number of different articles that are submitted which don't necessarily stand for curriculum.  They may be challenging; they may be a whole lot of things.  
But they don't necessarily mean that that is a direction that a whole lot 
of folks at the university are necessarily taking, nor does it state a 
policy of the university.

	So I'm sorry that I've missed the questions, and it may be that 
all that was dealt with very well.  But I did want to just submit for the record, Mr. Chairman, this critical reader, and have it available to 
members to take a look at it.

Mr. Gingrey. Without objection_

COVER PAGE AND TABLE OF CONTENTS OF A DOCUMENT ENTITLED, "THE 
SEPTEMBER 11th CRISIS: A CRITICAL READER", SUBMITTED FOR THE RECORD BY 
REPRESENTATIVE SUSAN DAVIS, SUBCOMMITTEE ON SELECT EDUCATION, 
COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, DC -- SEE APPENDIX G

Mr. Ryan. Would the gentle lady yield?

Mrs. Davis. Yes.

Mr. Ryan. Thank you.  I just wanted to ask Dr. Hartle one more question, 
if you don't mind.

Mrs. Davis. Sure, go ahead.

Mr. Ryan. We talked a lot about the post-colonial theory that obviously 
has a lot of interest.  In your opinion, is there a counterpoint that is 
being taught?  And if so, is it being taught with as much interest or as 
much energy as the other theory?

Dr. Hartle. Well, as I indicated, Congressman, I don't think the post-
colonial theory is attracting anywhere near as much attention or is the dominant paradigm as Dr. Kurtz would have you believe.

	Having said that, as I indicated in my statement, I think there is 
a continuum of theories about what goes on in the Middle East.  And at one 
end would be the sort of post-colonial, the West is responsible, the 
Western World is responsible view.  On the other end would be the Western 
World is not at fault.  We are blameless.

	And the scholars that you would find at that end, or close to that end, would be people like Bernard Lewis, whose book What Went Wrong?, is currently on the New York Times bestseller list, and Samuel Huntington, 
whose book Class of Civilization also spent time on the New York 
Times bestseller list.

	In preparation for the hearing, I checked with the publishers of 
both books, and they confirmed that both books are selling extremely well 
for course books for colleges and universities.

	So again, I continue to believe that the evidence of bias is badly overstated.  I don't think it exists anywhere near the extent to which Dr. Kurtz would like you to believe it does.

	I would suggest the committee think of doing two things.  One, it would be a fairly straightforward matter to ask an independent third party 
to review some of the national resource centers for issues of bias.  I emphasize independent third party.  I think Dr. Kurtz probably wouldn't 
want me to run that, and I assure you, I wouldn't want him to run that.

Mr. Ryan. I think that would be fun to have you guys do this. 

Dr. Hartle. For example, the National Academy of Sciences would have the 
standing and the stature to look at these questions and provide a report 
to the committee.

	I think if you're interested in post-colonial theory, it would be 
a fairly simple matter for you to write to the center directors, all of 
the centers, all 114 of them, if you want, or some subsets, and ask them 
what they think of post-colonial theory and the extent to which it 
influences their teaching, their research and so on.

	Dr. Kurtz  suggested that faculty members are teaching post-colonial 
theory without even realizing it, because they've inculcated it so much.  I think the notion that leading faculty members at institutions like Dr. 
Roden and Dr. Merkx don't know what they're teaching and don't know what 
shape they're thinking is preposterous.  The facts won't bear it out.

	And the only way for you to get an answer to this question, 
frankly, is to ask the people who are doing the teaching, ``How important 
is this to you?''

Mr. Ryan. I think that's a good idea, and I will encourage the committee 
to do that.  And let me just say in closing thank you for everything.  
And I think the fact that our federal money is going to teach, whether 
it's to the extent that Dr. Kurtz thinks or Dr. Hartle thinks, post-
colonial theory, I think, speaks volumes about what kind of country we 
live in and what we stand for, that that would even be an option.

	So thank you very, very much for your time and energy today.

Mrs. Davis. Thank you, and Mr. Chairman reclaiming my time on my 
second round.  Again, I wanted to submit this for the record, and I 
would yield the balance of my time to Mr. Hinojosa.

	And again, thank you, Mr. Chairman, for the meeting, and thank you 
to all of you.  I'm sorry that I wasn't able to be here for its entirety.

Mr. Hinojosa. I thank Congresswoman Davis for yielding time.

	As I mentioned in my own opening statement, many of the students 
and communities served by the Hispanic-serving institutions and/or by historically black colleges and universities are not participating and contributing to the extent they should in international education programs.

	What are the recommendations from the representative from Duke and from the representative from Harvard?  What are the recommendations for 
those minority-serving institutions to improve their access to these 
programs?  First, from Dr. Merkx.

Dr. Merkx. The IIPP part of Title VI, that's the third part, which focuses 
on providing assistance to students and minority-serving institutions, I consider to be very successful.  The problem is it's a very small program.  
It has had very little funding.  And, of course, that's an appropriations issue.  But I think the legislative vehicle is in place in the current law 
and should be continued, but it should be better funded.

	I also think that there are opportunities through the outreach activities of NRCs to focus more on outreach at the higher education level.  Mainly, our outreach has been focused at the K-12 level.  But insofar as we can build partnerships between research universities that are strong 
internationally and other institutions that have high proportions of 
minority students that can provide a vehicle for recruiting those minority students to later go to graduate school in the research institutions.

	I think the other interesting thing I saw in New Mexico is that in 
my first 10 years or so, we recruited a lot of Hispanic students into Latin American studies.  In the last 10 years, those numbers drifted downwards, because the Hispanic students wanted to go into the professions.  They 
wanted to become doctors and lawyers.  And I thought that was certainly a healthy phenomenon, although it made it harder for us to recruit Hispanic students.

Mr. Hinojosa. I wish I could discuss that a little bit longer with you, 
but we'll do it after the hearing.


	Dr. Kurtz, what could the folks from Harvard do to get HSIs and 
HBCUs to participate?

Dr. Kurtz. Well, let me clarify, Congressman Hinojosa.  I did, in fact, 
teach at Harvard for some time. Some of the credentials which Congressman Gingrey mentioned were actually from when I was at the University of 
Chicago. But I've been out of the academy for several years, and a think 
tank and I don't have any special expertise on minority recruitment as it reflects on Title VI.  So, it would be out of my depth to comment on that particular question.

Mr. Hinojosa. Then I would ask Ms. Stewart.

Ms. Stewart. Well, I think there was a paper commissioned for the Duke 
conference, and I don't remember who wrote it, on this whole issue of 
minority recruitment which would be worth the committee looking at.  I 
don't remember all of the things that it said.  But I do think it's also a part of the phenomenon of I think students need to be interested in these issues earlier.  After all, they decide when they're undergraduates which courses to take and which courses not to take.  And so if they haven't had 
any exposure earlier, they tend not to go into those fields.  So to me, it feeds back into the need to begin this earlier.

Mr. Hinojosa. Thank you.  And Dr. Hartle, I think that the business 
community might have the answer.

Dr. Hartle. Well, I certainly wouldn't want to speak for the business 
community on this.  But speaking for the American Council on Education, I think that we do know, based on what Congress did in the 1998 
reauthorization with Part C, as Dr. Merkx indicated, the Institute for 
Public Policy, that there are a number of concrete steps that can be 
taken that can be very precise and targeted that can have a pretty 
significant impact on participation of under-represented minorities in 
Title VI.

	Title VI is a very popular program.  Every one of the programs has 
far more applicants than there is money available, so I'm sure we can 
figure out ways to accomplish what you would like to.  As you probably 
know, the Hispanic association at colleges and universities has put forward some concrete recommendations to do this.  I think those are very sensible 
and thoughtful recommendations that merit a careful look.

Mr. Hinojosa. With that, Mr. Chairman, I thank you for the additional 
time, and I yield back to Mrs. Davis.

Mrs. Davis. Thank you, Mr. Chairman.  I have no other comments.

Mr. Gingrey. Thank you, Ms. Davis.

	In my closing remarks, let me just offer you a few anecdotes.  I 
don't think there are too many gray-haired folks out here in the audience, 
and you might or might not remember. But when I was in what we used to call grammar school and middle school, my favorite subject was geography. Do you remember geography?  I don't know what happened to it, but it just kind of 
disappeared somewhere along the line and became, I guess, an elective.  But, of course, we only scratched the surface in regard to countries and parts 
of the world, and their peoples and their languages that they spoke, and 
the natural resources that they had, and their products, and whether 
it was agriculture or whatever. But I was particularly interested, of 
course, in Mrs. Stewart's remarks and written testimony in regard to K-12 
and the lack of knowledge.  I mean, it's kind of shocking, really, when you talk about not being able to locate a country on the globe, and not 
knowing which ocean separates us from Asia, and other things.  It really 
is shocking, and I think you bring forward some points that are extremely well-taken by the members of the subcommittee, and, of course, of the committee as a whole as we go forward.

	And without question, I think 9/11, all of a sudden, what a wake-up call it is to us to realize how important Title VI is.

	I know I mentioned earlier that my son attended the American School 
of International Management, the Thunderbird School, in Glendale, Arizona.  And this was several years ago. It was certainly pre-9/11.  And his 
roommate was from Columbia.  His best friend was from Yemen.  And I think 
that school, at the time, there was a requirement that nearly 50 percent of the student body were foreign nationals.  I'm not sure what the makeup of 
the student body there is now, Dr. Roden.  It may be far different from 
that.

	But Dr. Kurtz, of course, brings up some concerns that I had no 
idea that were out there.  And clearly, you know, we're in this Title VI 
of the Higher Education Act. These are extremely important points and bits 
of information; points and counterpoints.  Not total agreement, obviously, 
of whether the problem or the degree of the problem exists, or how to necessarily solve it.  But you've certainly given us some great food for thought.  Because I think this is extremely important.

	And I've often said in regard to this country, I go back in history, and I truly agree with what Teddy Roosevelt said, that it's very important 
for our country to speak softly, but carry a big stick.  And I think we do carry a big stick.  Operation Iraqi Freedom, and Enduring Freedom in 
Afghanistan, and other military operations sort of prove that.

	But we need to probably work doubly hard on speaking softly.  It 
is important that we're liked and accepted and perceived as being 
even-handed in the way we deal with the rest of the world.

	And so this has been a great hearing, and I can't tell you how much 
I appreciate, how we members of the subcommittee appreciate you being here today and giving us your valuable time and testimony.

	That being said, if there's no further business, the subcommittee stands adjourned.

	[Whereupon, at 3:35 p.m., the subcommittee was adjourned.]

APPENDIX A -- WRITTEN OPENING STATEMENT OF REPRESENTATIVE 
PHIL GINGREY, SUBCOMMITTEE ON SELECT EDUCATION, 
COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, DC 

<GRAPHIC(S) NOT AVAILABLE FOR TEXT FILE>

APPENDIX B -- WRITTEN STATEMENT OF DR. PEYTON FOSTER 
RODEN, DIRECTOR, CENTER FOR NAFTA STUDIES, COLLEGE OF 
BUSINESS ADMINISTRATION, UNIVERSITY OF NORTH TEXAS, 
DENTON, TEXAS  
<GRAPHIC(S) NOT AVAILABLE FOR TEXT FILE>

APPENDIX C -- WRITTEN STATEMENT OF MS. VIVIEN STEWART, VICE 
PRESIDENT FOR EDUCATION, ASIA SOCIETY, NEW YORK, NEW YORK   
<GRAPHIC(S) NOT AVAILABLE FOR TEXT FILE>

APPENDIX D -- WRITTEN STATEMENT OF DR. STANLEY KURTZ, 
RESEARCH FELLOW, HOOVER INSTITUTION AND CONTRIBUTING 
EDITOR, NATIONAL REVIEW ONLINE, WASHINGTON, DC   
<GRAPHIC(S) NOT AVAILABLE FOR TEXT FILE>

APPENDIX E -- WRITTEN STATEMENT OF DR. GILBERT MERKX, VICE 
PROVOST FOR INTERNATIONAL AFFAIRS, DUKE UNIVERSITY, 
DURHAM, NORTH CAROLINA 
<GRAPHIC(S) NOT AVAILABLE FOR TEXT FILE>

APPENDIX F -- WRITTEN STATEMENT OF DR. TERRY HARTLE, SENIOR 
VICE PRESIDENT, AMERICAN COUNCIL ON EDUCATION, 
WASHINGTON, DC  
<GRAPHIC(S) NOT AVAILABLE FOR TEXT FILE>

APPENDIX G -- COVER PAGE AND TABLE OF CONTENTS OF A 
DOCUMENT ENTITLED, "THE SEPTEMBER 11th CRISIS: A CRITICAL 
READER", SUBMITTED FOR THE RECORD BY REPRESENTATIVE 
SUSAN DAVIS, SUBCOMMITTEE ON SELECT EDUCATION, 
COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENTATIVES, WASHINGTON, DC 
<GRAPHIC(S) NOT AVAILABLE FOR TEXT FILE>


APPENDIX H -- LETTER SUBMITTED TO CHAIRMAN PETE HOEKSTRA 
FROM REPRESENTATIVE MAX BURNS, SUBCOMMITTEE ON SELECT 
EDUCATION, COMMITTEE ON EDUCATION AND THE WORKFORCE, 
U.S. HOUSE OF REPRESENTATIVES, WASHINGTON, DC
<GRAPHIC(S) NOT AVAILABLE FOR TEXT FILE>

APPENDIX I -- LETTERS AND TESTIMONY SUBMITTED FOR THE 
RECORD BY THE PUBLIC TO THE SUBCOMMITTEE ON SELECT 
EDUCATION, COMMITTEE ON EDUCATION AND THE WORKFORCE, 
U.S. HOUSE OF REPRESENTATIVES, WASHINGTON, DC
<GRAPHIC(S) NOT AVAILABLE FOR TEXT FILE>

                             TABLE OF INDEXES



Mr. Gingrey, 1, 4, 7, 9, 11, 13, 15, 16, 17, 19, 20, 21, 22, 23, 24, 26, 27, 30
Mr. Hartle, 13, 16, 26, 28, 30
Mr. Hinojosa, 3, 4, 17, 18, 19, 23, 24, 29, 30
Mr. Kurtz, 9, 16, 19, 20, 21, 22, 25, 28, 30
Mr. Merkx, 11, 16, 18, 21, 29
Mr. Roden, 4, 5, 17, 19, 20, 21, 22, 24, 25
Mr. Ryan, 19, 20, 21, 24, 25, 26, 27, 28
Mrs. Davis, 27, 29, 30
Ms. Stewart, 7, 17, 23, 30


</pre></body></html>
